CREDIT CARD AGREEMENT
Important Terms of Your Credit Card Account
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

12.99%

How to Avoid Paying Interest
on Purchases

Your due date is at least 23 days after the close of each billing cycle. We will not charge you any interest
on purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
To learn more about factors to consider when applying for or using a credit card, visit the website
Consumer Financial Protection of the Consumer Financial Protection Bureau at https://www.consumerfinance.gov/learnmore.
Bureau
Fees
Annual Fee

None

Penalty Fees
• Late Payment
• Returned Payment

Up to $40.00
Up to $40.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Agreement.
How We Will Calculate Your Penalty Fees: The fee will be the lesser of the Minimum Payment Due or $29.00. For any subsequent event
within a rolling six billing cycle period, the fee will be the lesser of the Minimum Payment Due or $40.00.
The information about the cost of credit described in this Agreement is accurate as of January 2021. This information may have changed
after that date. To find out what may have changed, call us at 1-800-459-8451.
ARBITRATION AGREEMENT
Binding Arbitration. You and Wells Fargo Bank, N.A. (the “Bank”), including the Bank’s assignees, agents, employees, officers, directors, shareholders, parent
companies, subsidiaries, affiliates, predecessors and successors, agree that if a Dispute (as defined below) arises between you and the Bank, upon demand
by either you or the Bank, the Dispute shall be resolved by the following arbitration process. However, the Bank shall not initiate an arbitration to collect
a consumer debt, but reserves the right to arbitrate all other disputes with its consumer customers. A “Dispute” is any unresolved disagreement between
you and the Bank. It includes any disagreement relating in any way to your Credit Card Account (“Account”) or related services. It includes claims based on
broken promises or contracts, torts, or other wrongful actions. It also includes statutory, common law and equitable claims. A Dispute also includes any
disagreements about the meaning or application of this Arbitration Agreement. This Arbitration Agreement shall survive the payment or closure of your
Account. You understand and agree that you and the Bank are waiving the right to a jury trial or trial before a judge in a public court. As the sole
exception to this Arbitration Agreement, you and the Bank retain the right to pursue in small claims court any Dispute that is within that court’s jurisdiction.
If either you or the Bank fails to submit to binding arbitration following lawful demand, the party so failing bears all costs and expenses incurred by the other
in compelling arbitration.
Arbitration Procedure; Severability. Either you or the Bank may submit a Dispute to binding arbitration at any time notwithstanding that a lawsuit or
other proceeding has been previously commenced. Neither you nor the Bank shall be entitled to join or consolidate disputes by or against others
in any arbitration, or to include in any arbitration any dispute as a representative or member of a class, or to act in a private attorney general
capacity. Each arbitration, including the selection of the arbitrator(s) shall be administered by the American Arbitration Association (AAA), or such other
administrator as you and the Bank may mutually agree to (the AAA or such other mutually agreeable administrator to be referred to hereinafter as the
“Arbitration Administrator”), according to the Commercial Arbitration Rules and the Supplemental Procedures for Consumer Related Disputes (“AAA Rules”).
To the extent that there is any variance between the AAA Rules and this Arbitration Agreement, this Arbitration Agreement shall control. Arbitrator(s) must
be members of the state bar where the arbitration is held, with expertise in the substantive laws applicable to the subject matter of the Dispute. No arbitrator
or other party to an arbitration proceeding may disclose the existence, content or results thereof, except for disclosures of information by a party required
in the ordinary course of its business or by applicable law or regulation. You and the Bank (the “Parties”) agree that in this relationship: (1) The Parties are
participating in transactions involving interstate commerce; and (2) This Arbitration Agreement and any resulting arbitration are governed by the provisions
of the Federal Arbitration Act (Title 9 of the United States Code), and, to the extent any provision of that Act is inapplicable, unenforceable or invalid, the
laws of the state of South Dakota. If any of the provisions of this Arbitration Agreement dealing with class action, class arbitration, private attorney general
action, other representative action, joinder, or consolidation is found to be illegal or unenforceable, that invalid provision shall not be severable and this
entire Arbitration Agreement shall be unenforceable.
Rights Preserved. This Arbitration Agreement does not prohibit the Parties from exercising any lawful rights or using other available remedies to preserve,
foreclose or obtain possession of real or personal property; exercise self-help remedies, including setoff and repossession rights; or obtain provisional or
ancillary remedies such as injunctive relief, attachment, garnishment or the appointment of a receiver by a court of competent jurisdiction. Any statute of
limitations applicable to any Dispute applies to any arbitration between the Parties. The provisions of this Arbitration Agreement shall survive termination,
amendment or expiration of the Account or any other relationship between you and the Bank.
Fees and Expenses of Arbitration. Arbitration fees shall be determined by the rules or procedures of the Arbitration Administrator, unless limited by
applicable law. Please check with the Arbitration Administrator to determine the fees applicable to any arbitration you may file. If the applicable law of the
state in which you opened your Account limits the amount of fees and expenses to be paid by you, then no allocation of fees and expenses to you shall
exceed this limitation. Unless inconsistent with applicable law, each of us shall bear the expense of our own attorney, expert and witness fees, regardless
of which of us prevails in the arbitration.
Military Lending Act: The Arbitration Agreement does not apply to you if you are covered by the Military Lending Act nor do any provisions that waive any
right to legal recourse under any state or federal law to the extent required by the Military Lending Act. Please see The Military Lending Act Notice in the
Agreement for more information.
Page 1 of 4

6102OA 1690 (0121)

CREDIT CARD AGREEMENT
Notice to California Cardholders
INTEREST RATES. We use daily periodic rates and corresponding APRs to figure interest
on balances on your Account. The daily periodic rate is 0.03558%, which is calculated by
To our California customers who have discussed credit card terms and conditions with us
dividing the APR by 365.
or the Merchant in Spanish, Chinese, Korean, Vietnamese, or Tagalog:
Read the section titled INTERPRETER CERTIFICATION before you use your Account.
WHEN WE CHARGE INTEREST. Unless stated otherwise below, we begin charging interest
Lean la sección titulada CERTIFICACIÓN DE INTÉRPRETE antes de usar su Cuenta.
on a purchase or interest charge on the date the purchase or interest charge posts to your
在使用您的帳戶以前，請閱讀題為「傳譯員確認書」一節。
Account. We begin charging interest on a fee on the first day of the Billing Cycle following the
귀하의 계좌를 이용하기 전에 먼저 통역사 인증이라는 제목의 섹션을 읽으십시오
Billing Cycle in which the fee posts to your Account. However, if a late payment fee is posted
Đọc mục tựa đề CHỨNG NHẬN THÔNG DỊCH VIÊN trước khi quý vị sử dụng Trương
to your Account in the current Billing Cycle, but is related to a late payment in the prior Billing
Mục của mình.
Cycle, we will begin charging interest on the fee on the first day of the current Billing Cycle.
Basahin ang seksyon na pinamagatang SERTIPIKO NG TAGAPAGSALING-WIKA bago ninyo HOW TO AVOID PAYING INTEREST ON PURCHASES. Unless described differently in the
gamitin ang inyong Account.
Special Interest Terms section below, you can avoid interest on any portion of a purchase
These terms apply to your entire Account.
balance shown on your current statement that you pay by the Payment Due Date if the
About Your Account
balance shown on your previous statement was zero or was paid in full by the Payment
AGREEMENT. This Credit Card Agreement (“Agreement”) covers the use of your Credit Card
Due Date.
Account (“Account”) with us. It includes the Important Terms of Your Credit Card Account. HOW WE CALCULATE INTEREST—AVERAGE DAILY BALANCE METHOD (INCLUDING
Your signature on your application or solicitation for this Account, including without NEW PURCHASES). The total interest charge is the sum of interest charges (excluding
limitation any electronic or digital signature, as well as your signature on Sales Slips or any deferred interest charges) for each type of balance on your Account (e.g. regular, each special
Account-related document, represents your signature on this Agreement. You accept the
terms balance). We figure the interest charge for each type of balance on your Account by
terms of this Agreement by opening or using your Account. If you have a joint Account, applying the daily periodic rate to the average daily balance (“ADB”). Then, we multiply this
each of you is bound by this Agreement. Please read this Agreement carefully and save it
amount by the number of days in the Billing Cycle.
for future reference.
Interest charge = daily periodic rate x ADB x number of days in the Billing Cycle.
PARTIES TO THIS AGREEMENT. This Agreement is made between Wells Fargo Bank, N.A.,
ADBs for each type of balance are calculated separately, starting with the beginning balance
101 North Phillips Avenue, Sioux Falls, SD 57104 (“we,” “us,” and “our”) and each account
on the first day of each Billing Cycle. The beginning balance on the first day of the Billing
holder, whether primary or joint (“you” and “your”).
Cycle includes the following:
CONTACTING US. Unless stated otherwise in this Agreement, you may contact us at the
phone number or address shown on your statement. For more information, visit us online • The prior Billing Cycle’s ending balance, which includes any unpaid fees posted to your
Account in the prior Billing Cycle.
at wellsfargo.com/cardholders.
• Any late payment fees posted in the current Billing Cycle that are related to a late payment
DEFINITIONS.
in the prior Billing Cycle.
Billing Cycle
The interval between statements. Each statement shows
To get the ADB for each type of balance, we take the beginning balance each day and add
a closing date. The statement closing date is the last day
any new purchases. Except for the first day of each Billing Cycle, we add interest equal
of the Billing Cycle for that statement.
to the previous day’s balance multiplied by the daily periodic rate. (This means interest
Card
The credit card we may issue to use your Account.
is compounded daily.) Then, we subtract any payments or credits. This gives us the daily
Credit Access Device
A device, other than your Card, we allow you to use to
balance. Any daily balance that is a credit balance will be treated as zero. Then, we add up
access credit on your Account.
all the daily balances for the Billing Cycle. We divide this amount by the number of days in
the Billing Cycle. This gives us the ADB.
Important Terms of Your A summary of your Account’s Annual Percentage Rates
ADB = sum of daily balances ÷ number of days in the Billing Cycle.
Credit Card Account
(“APRs”), fees and other important information.
MINIMUM INTEREST CHARGE. If you are charged interest in a Billing Cycle, the charge
Merchant
Any merchant who has a merchant agreement with us to
will be no less than $1.00.
participate in this credit card program.
Payments
New Balance
The Outstanding Balance as of a statement closing date.
MINIMUM PAYMENT DUE. You promise to pay the Minimum Payment Due by the Payment
Outstanding Balance
The sum of all unpaid amounts, including purchases,
Due Date. The Minimum Payment Due is the sum of:
interest, fees and any other amounts that you may owe us.
• Any past due amounts; plus
Payment Address
The address where you mail your payment. It is located
• The payment for Regular Payment Terms (see Regular Payment Terms below); plus
on your Payment Stub.
• The payment(s) for any balances with Payment in Full/’Equal Payments’ or Custom
Payment Due Date
The date the Minimum Payment Due is due to us. It is
Payments (see Special Payment Terms below).
shown on your statement.
You
may at any time pay, in whole or in part, the Outstanding Balance without any additional
Payment Stub
The portion of your statement that is to be returned with
charge for prepayment. If you pay more than the Minimum Payment Due but less than the
your payment.
Outstanding Balance, you are still required to pay the Minimum Payment Due in the next
Sales Slip
Any document that describes the terms of a purchase
Billing Cycle.
on the Account.
REGULAR PAYMENT TERMS. All balances will have Regular Payment Terms unless a Sales
OVERVIEW OF ACCOUNT. Your Account may be divided into two or more balances. These
Slip shows that Payment in Full/’Equal Payments’ or Custom Payments apply. We combine
balances may also be referred to as subaccounts. Different terms may apply to different balances with Regular Payment Terms (the “Combined Balance”) to figure the payment
balances.
for these balances. A new Combined Balance is figured on the first statement closing
USING YOUR ACCOUNT. You may use your Account for purchases. Purchases will be part
date after any balance with Regular Payment Terms is established. The Combined Balance
of the regular balance unless a Sales Slip shows that special terms apply. If special terms
does not change unless balances with Regular Payment Terms increase above the current
apply, the purchase will be part of a special terms balance. Special terms are described later Combined Balance.
in this Agreement (see Special Terms section).
The payment for balances with Regular Payment Terms will be the greater of:
You promise that you will use your Account only for lawful personal, family or household • $40.00 (or the sum of balances with Regular Payment Terms if it is less than $40.00); or
purposes. In addition, we reserve the right to deny transactions or authorizations
• 3.5% of the Combined Balance; or
from merchants apparently engaging in the Internet gambling business or identifying
• The sum of interest charges for balances with Regular Payment Terms, fees assessed during
themselves through the Card transaction record or otherwise as engaged in such business.
the current Billing Cycle, and 1% of the Combined Balance.
We are not responsible if anyone does not allow you to use your Account.
PROMISE TO PAY. When you use your Account, or let someone else use it, you promise to PAYMENT INSTRUCTIONS. Follow these instructions when making a payment:
• Make your payment in U.S. dollars, but do not send cash.
pay the total amount of the purchase, as well as any interest, fees or other amounts that
you may owe us. We may limit or close your Account, but the terms of this Agreement will • If you make a payment by mail, please include the Payment Stub with your payment.
apply until you pay the Account in full.
Use the envelope enclosed with your statement to mail both documents to the Payment
CREDIT LIMIT. We will assign a Credit Limit to your Account. A Credit Limit is the amount of
Address. Payments received by 5:00 p.m. local time at the Payment Address will be
credit we will extend to your Account. Your Credit Limit is provided with your Card and on
credited as of the date of receipt. Payments received after the 5:00 p.m. cut-off time will
each of your statements. You promise to use your Account only to the Credit Limit. If you
be credited as of the next day. When you provide a check as payment, you authorize us
exceed your Credit Limit, we may authorize the transaction without increasing your Credit
either to use information from your check to make a one-time electronic fund transfer from
Limit. If you exceed your Credit Limit, you will remain liable for all amounts payable under
your Account or to process the payment as a check transaction. When we use information
this Agreement. We can adjust your Credit Limit at any time.
from your check to make an electronic fund transfer, funds may be withdrawn from your
CREDIT ACCESS DEVICE. We may provide you with Credit Access Device(s) to access your
Account as soon as the same day we receive your payment, and you will not receive your
Account. The related interest and fee terms will be given to you when you receive the Credit
check back from your financial institution. Your statement also explains how information
Access Device(s).
on your check is used.
Fees and Interest
• If you make a payment online, it must be made via our website, which is shown on your
FEES. You agree to pay the following fees. You will find the fee amounts in the Important
statement. The cut-off time for online payments will be disclosed at the time of the
Terms of Your Credit Card Account. These fees will be charged to your regular balance unless
transaction.
stated otherwise below.
If you do not follow these instructions, your payments may not receive credit for up to five
• Late Payment Fee. This fee may be charged each time we do not receive the Minimum days after we receive it.
Payment Due by the Payment Due Date.
Some of your available line of credit may be held, at our discretion, until your payment is
• Returned Payment Fee. This fee may be charged when a payment is dishonored the first honored.
time or is returned unpaid.
6102OA 1690 (0121)
Page 2 of 4

IRREGULAR PAYMENTS. We may accept late payments, partial payments or payments
that reflect “paid in full” (or other restrictive language), without losing our rights to receive
full payment. If you intend to claim to pay your Account in full with an amount less than
the Outstanding Balance, payments must be sent to us at Wells Fargo Bank, N.A., P.O. Box
14453, Des Moines, IA 50306.
APPLICATION OF PAYMENTS. We apply payment amounts equal to or less than the
Minimum Payment Due at our discretion. We apply any payment amounts in excess of the
Minimum Payment Due as follows:
• First, to balances with No Interest if Paid in Full terms during the two full Billing Cycles
immediately preceding expiration of the special terms period. Otherwise, for purposes
of this section only, these balances are considered to have an APR of 0%;
• Then to balances with higher APRs before lower APRs.
Any payment in excess of the Minimum Payment Due is applied based on the balances
reflected on your last statement. We post payments in the Billing Cycle they are received.
Other Information
CANCELLATION. We may close your Account at any time and for any reason. You may also
close the Account at any time by contacting us. If that happens, you must still repay the
balance owed according to the terms of this Agreement. If we close the account, notice may
be provided to only one Account Holder.
AUTHORIZED USERS. If we permit authorized users on your Account, you may request
additional Cards for authorized users. You are responsible for all charges (including related
interest and fees) made by the authorized user. If you want to end an authorized user’s
privilege to use your Account, before we can process the request, you must:
• Recover and destroy that person’s Card. If you do not recover and destroy the Card, you
will continue to be liable for any charges made after you advised us of your wish to cancel
the privileges, unless you tell us to cancel all Cards and establish a new Account for you.
• You must notify us of your request by contacting us at the phone number or address
shown on your statement.
In general, an authorized user is not obligated on this Account and is not liable for any
Outstanding Balance or any other charges made by you or by any other authorized user.
Each authorized user’s privilege ends automatically upon the death of all account holders.
If any person uses the Card, such use indicates his or her agreement to pay us, and we may,
at our discretion, pursue the person for payment of any Outstanding Balance or any other
charges they authorize. You agree to notify each authorized user that they are subject to
all applicable sections of this Agreement.
CONTACTING YOU. By providing us with any phone number, you are expressly consenting
permission to contact you at that number about all of your Wells Fargo accounts. You give
consent to allow us to contact your past, present and future phone service providers to
verify the information you have provided against their records. You agree that your phone
service providers may verify any phone numbers you have supplied to the name, address,
and status on their records. In order for us to service your Account or to collect any amounts
you may owe, you agree that we may contact you using any contact information related to
your Account, including any number (i) you have provided to us, (ii) from which you called
us, or (iii) which we obtained and reasonably believe we can reach you. We may use any
means to contact you. This may include contact from companies working on our behalf to
service your accounts. This may include automated dialing devices, prerecorded/artificial
voice messages, mail, e-mail, text messages and calls to your mobile, wireless or similar
device or Voice over Internet Protocol (VolP) service, or any other data or voice transmission
technology. You are responsible for any service provider charges as a result of us contacting
you. You agree to promptly notify us if you change any contact information you provide to
us. This includes your name, mailing address, e-mail address(es), or phone number(s). If you
have a joint account, a notice to one of you will serve as a notice to both of you.
PHONE MONITORING. We may monitor and record your phone calls with us.
LOST OR STOLEN CARDS AND LIABILITY FOR UNAUTHORIZED USE. You agree to contact
us immediately if your Card is lost or stolen or if you believe your Account is being used
without your permission. You may contact us at 1-800-459-8451 or P.O. Box 10347, Des
Moines, IA 50306. You agree to assist us in our investigation of the matter. If you do this,
you will not be held liable for the unauthorized use of your Account.
DEFAULT. Your Account will be in default if any of the following occur:
• You fail to pay the Minimum Payment Due by the Payment Due Date.
• Any payment is dishonored.
• You violate the terms of this Agreement.
• You made an untrue statement on your application.
• You file for bankruptcy.
If this is a joint Account, a default by one of you will be a default by all of you. If your
Account is in default, our rights include, but are not limited to, refusing to authorize
further transactions, closing your Account, and requiring the immediate payment of the
Outstanding Balance. If your Account is in default, you also agree to pay our collection costs,
attorney’s fees, and court costs.
GOVERNING LAW. Federal law and the laws of South Dakota govern this Agreement and
your Account.
CHANGE IN TERMS. We may change this Agreement at any time. These changes may
apply to existing and future balances. We will give you advance written notice of the
change(s) and a right to reject the change(s) if required by law. We may require you
to close your Account or take other actions if you reject the changes.
ENFORCING THIS AGREEMENT. We may waive or delay enforcing any of our rights without
losing them. We may waive or delay enforcing a right against one of you without waiving
it as to the other.
SEPARATION OF UNLAWFUL PROVISIONS. If any provision of this Agreement is
determined to be unlawful, the rest of the Agreement will stand and the unlawful provision
will be deemed amended to conform to law.
INFORMATION SHARING. You authorize us to share your personal and/or Account
information with nonaffiliates. Nonaffiliates include Merchants, their affiliates, their service
providers, and program sponsors (“sponsors”). A sponsor is a franchisor, manufacturer,
distributor of goods or an association of retail sellers. Sponsors have arrangements with us

to make credit card programs available to Merchants associated with the sponsor. Federal
or state laws may limit our ability to share your personal and/or Account information with
nonaffiliates even though you have given us this authorization. We comply with these
federal and state laws. Please refer to the Wells Fargo Retail Services Privacy Notice for more
information about how we collect, share, and protect your information, as well as how you
may limit some, but not all, information sharing.
CREDIT INFORMATION. You promise that any information you give to us in connection
with your Account is true and complete. You understand that we rely on this information
to open your Account and extend credit to you. You authorize us to investigate your credit,
employment, assets, and income records and to verify your credit references. You also
authorize us to obtain credit reports on you from time to time.
INFORMATION REPORTING. You agree that we may report your performance, status, and
history under this Agreement to consumer reporting agencies. If you request additional
Cards on your Account for others, you understand that we may report Account information
in your name as well as in the names of those additional cardholders. If you fail to comply
with the terms of the Account as defined in this Agreement, it will be furnished to the credit
reporting agencies and it could cause a negative reference on your credit report and the
credit reports of any additional cardholders. You have the right to dispute the accuracy
of information that we have reported by writing to us at Wells Fargo Bank, N.A., P.O. Box
14517, Des Moines, IA 50306 and describing the specific information that is inaccurate or
in dispute and the basis for any dispute with supporting documentation. In the case of
information that you believe relates to an identity theft, you will need to provide us with
an identity theft report.
ASSIGNMENT. We have the right to assign your Account to another creditor. The other
creditor is then entitled to any rights we assign to them. You do not have the right to assign
your Account.
SECURITY INTEREST. You grant us a purchase-money security interest under the Uniform
Commercial Code in the goods purchased on your Account. We will retain the purchasemoney security interest until such goods are paid for in full. You agree to assist us in executing
any documents necessary to perfect our security interest.
Special Terms
These terms apply to Special Terms.
SPECIAL TERMS. We may allow you to make purchases at special terms. If a Sales Slip shows
that special terms apply, then the purchase will be governed by the special terms and the
terms of this Agreement. You accept the special terms by making the purchase. A Sales Slip
will state the length of the special terms period, if any. Separate purchases with the same
special terms may be included in the same special terms balance. If special terms balances
are combined, this may increase the payment for that balance. If a balance is not paid in
full before the end of the No Interest or No Interest if Paid in Full period, the balance (and
any deferred interest) will be transferred to your regular balance.
SPECIAL INTEREST TERMS. A Sales Slip may indicate that one or more of the following
special interest terms applies. Except for No Interest balances, we will use the same method
to calculate interest as described above in How We Calculate Interest—Average Daily
Balance Method (Including New Purchases).
• No Interest. This means there is no interest charge on the purchase balance until the end of
the special terms period. You may avoid interest on the balance by paying it in full before
the end of the special terms period.
• No Interest if Paid in Full. This means we calculate interest on the purchase balance. This
amount is called the deferred interest charge. The deferred interest charge will not be
added to the balance unless you do not pay the balance in full by the end of the special
terms period. You may avoid interest on the balance by paying it in full before the end of
the special terms period.
The following No Interest if Paid in Full special terms promotion may be offered to you:
No Interest
if Paid in
Full with
monthly
payments

If the purchase balance is not paid in full within the special terms
period, interest will be charged to your Account from the purchase
date at a rate of 12.99%. This special terms promotion may be offered
for periods of 6-18 months. This special terms promotion will be
identified on your statement as “NO INT IF PD IN FULL.” The Special
Terms End Date will disclose the duration of the special terms.
• Special Rate. This means the APR shown on the Sales Slip will be used to figure interest
on the purchase balance. A special rate of 0% APR may be advertised as a “no interest”
special terms promotion.
SPECIAL PAYMENT TERMS. A Sales Slip may indicate that one or more of the following
special payment terms applies.
• Payment in Full/’Equal Payments’. This means the payment is the amount required to pay
the initial purchase balance shown on your statement in full during the special terms
period. Because of rounding, the final payment could be less than other payments.
• Custom Payments. This means the payment is a set dollar amount or a fraction or percent
of the highest balance of this type on any statement closing date. The payment will not
change unless, on a future statement closing date, the balance increases above the highest
balance.
Interpreter Certification
INTERPRETER CERTIFICATION. THIS CERTIFICATION APPLIES IF YOU CHOSE TO DISCUSS
WITH US OR THE MERCHANT THE TERMS AND CONDITIONS OF YOUR ACCOUNT IN SPANISH,
CHINESE, KOREAN, VIETNAMESE, OR TAGALOG. By signing the credit card application,
using or otherwise accepting the Card or related Account issued to you, you certify to
Wells Fargo Bank, N.A. (us) that: (1) You have received and discussed this Agreement with
your interpreter and that you and your interpreter have been given an opportunity to
discuss and negotiate with us or the Merchant the terms and conditions contained in
these enclosed documents; (2) Your interpreter is at least 18 years old and is fluent both
in English and in the language in which you chose to discuss with us or the Merchant the
terms and conditions of your Account, and is not employed by or made available through
the Merchant; (3) You understand and agree to the terms and conditions contained in these
enclosed documents as written.

Page 3 of 4

6102OA 1690 (0121)

CERTIFICACIÓN DE INTÉRPRETE. ESTA CERTIFICACIÓN SE APLICA SI USTED
ELIGIÓ CONVERSAR CON NOSOTROS O CON EL COMERCIO SOBRE LOS TÉRMINOS Y
CONDICIONES DE SU CUENTA EN ESPAÑOL, CHINO, COREANO, VIETNAMITA O TAGALO.
Al firmar la solicitud de tarjeta de crédito, utilizar o aceptar de otro modo la Tarjeta o
la Cuenta relacionada que se le haya otorgado, usted certifica a Wells Fargo Bank, N.A.
(nosotros) que: (1) Usted ha recibido y analizado este Contrato con su intérprete, y que
usted y su intérprete han tenido la oportunidad de analizar y negociar con nosotros o
con el Comercio los términos y condiciones contenidos en estos documentos adjuntos;
(2) Su intérprete tiene por lo menos 18 años y habla con fluidez en inglés y en el idioma
en el que usted haya elegido analizar con nosotros o con el Comercio los términos y
condiciones de su Cuenta, y no es un empleado ni ofrece sus servicios a través del
Comercio; (3) Usted entiende y acepta los términos y condiciones contenidos en estos
documentos adjuntos tal como se encuentran redactados.
傳譯員確認書 。 如果您選擇用中文和我們或商家討論有關您的帳戶的條款和條
件 ， 本確認書適用 。 如果您簽署信用卡申請書 、 使用或以其他方式接受富國銀行
（Wells Fargo Bank, N.A.，「我們」）核發給您的卡或相關帳戶，您即向我們確認：(1)
您已經收到並與您的傳譯員討論過本協議，而且您及您的傳譯員已有機會與我們或商
家討論、協商本文件中包含的條款及條件。(2) 您的傳譯員至少年滿18歲，並能夠流
利使用英文和中文（您選擇用中文與我們或商家討論您帳戶的條款及條件），且該傳
譯員並非商家僱員，亦非經由商家安排。(3) 您理解並同意本文件中包含的現有書面
條款與條件。
통역사 인증. 귀하의 계좌 이용약관에 대해 저희 또는 가맹점과 한국어로 논의할 것을
선택하셨다면 이 인증이 적용될 것입니다. 카드 신청서에 서명하거나, 귀하에게 발행된
카드 혹은 관련 계좌를 사용하거나 수락함으로써 귀하는 Wells Fargo Bank, N.A. (
저희)에 다음에 명시된 사항을 보증하시게 됩니다. (1) 귀하는 귀하의 통역사와 함께
이 동의서를 받고 검토하였으며, 귀하와 귀하의 통역사에게 이 동봉된 서류들의 약정에
대해 저희 또는 가맹점과 논의하고 검토할 수 있는 기회를 드렸습니다. (2) 귀하의
통역사는 18 세 이상이며, 영어와 귀하가 저희 또는 가맹점과 귀하의 이용약관에
대해 논의할 언어로 선택한 한국어에 모두 능통하며, 가맹점에서 또는 가맹점을 통해
고용하지 않았습니다. (3) 귀하는 이 동봉된 서류들에 기재된 이용약관을 이해하며
그 내용에 동의합니다.
CHỨNG NHẬN THÔNG DỊCH VIÊN. SỰ CHỨNG NHẬN NÀY ÁP DỤNG NẾU QUÝ
VỊ ĐÃ QUYẾT ĐỊNH BÀN THẢO VỚI CHÚNG TÔI HAY NGƯỜI BÁN HÀNG VỀ CÁC
ĐIỀU KIỆN VÀ ĐIỀU KHOẢN CỦA TRƯƠNG MỤC BẰNG TIẾNG VIỆT. Khi ký tên
vào đơn xin thẻ tín dụng hoặc sử dụng hay chấp thuận Thẻ hoặc Trương Mục liên quan được
cấp cho quý vị, quý vị chứng nhận với Wells Fargo Bank, N.A. (chúng tôi) rằng: (1) Quý vị
đã nhận được và bàn thảo bản Thỏa Thuận này với thông dịch viên của quý vị, và quý vị và
người này đã có cơ hội bàn thảo và thương lượng với chúng tôi hay Người Bán Hàng về các
điều khoản và điều kiện trong những văn kiện đính kèm này. (2) Thông dịch viên của quý vị đã
ít nhất 18 tuổi và thông thạo cả Anh ngữ và ngôn ngữ mà quý vị chọn để thảo luận với chúng
tôi hay Người Bán Hàng về các điều khoản và điều kiện của Trương Mục của quý vị. Thông
dịch viên cũng không phải là nhân viên của Người Bán Hàng hoặc do Người Bán Hàng cung
cấp cho quý vị. (3) Quý vị hiểu và đồng ý với các điều khoản và điều kiện chứa trong những
văn kiện đính kèm này.
SERTIPIKO NG TAGAPAGSALING-WIKA. ANG KATIBAYANG ITO AY MALALAPAT KAPAG
NAGPASIYA KAYONG MAKIPAG-USAP SA AMIN O SA MANGANGALAKAL UKOL SA MGA
TAKDA AT KONDISYON NG INYONG ACCOUNT SA TAGALOG. Sa pagpirma ng aplikasyon
para sa credit card, paggamit o kaya’y sa pagtanggap ng Card o kaugnay na Account na
ibinigay sa inyo, pinapatunayan ninyo sa Wells Fargo Bank, N.A. (kami) na: (1) Natanggap at
napag-usapan ninyo ng inyong tagapagsaling-wika ang Kasunduang ito at kayo ng inyong
tagapagsaling-wika ay nabigyan ng pagkakataon na makipag-usap at makipagkasundo sa
amin o sa Mangangalakal tungkol sa mga takda at kondisyon na nilalaman ng mga nakalakip
na dokumentong ito; (2) Ang inyong tagapagsaling-wika ay hindi kukulangin sa 18 taong
gulang at matatas sa Ingles at wikang Tagalog na pinili ninyo upang makipag-usap sa amin
o sa Mangangalakal tungkol sa mga takda at kondisyon ng inyong Account, at hindi siya
tauhan ng Mangangalakal o nakuha sa pamamagitan ng Mangangalakal; (3) Naiintindihan
ninyo at sumasang-ayon kayo sa mga takda at kondisyon na nilalaman ng mga nakalakip
na dokumentong ito.
Notices
THE MILITARY LENDING ACT NOTICE: Federal law provides important protections to
members of the Armed Forces and their dependents relating to extensions of consumer
credit. In general, the costs of consumer credit to a member of the Armed Forces and his or
her spouse or dependent may not exceed an annual percentage rate of 36 percent. This rate
must include, as applicable to the credit transaction or account: The costs associated with
credit insurance premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee charged (other than certain
participation fees for a credit card account). Please Note: There are NO credit insurance
premiums, fees for ancillary products, or application fees with this Account.
You may contact us at 1-800-338-3273 for information about the Military Annual Percentage
Rate and a description of your payment obligation.
The Arbitration Agreement does not apply to you if you are covered by the Military Lending
Act nor do any provisions that waive any right to legal recourse under any state or federal
law to the extent required by the Military Lending Act.
IN CALIFORNIA: A married applicant may apply for a separate account. After credit
approval, each applicant will have the right to use this Account to the extent of any limit set
by us, and may be liable for all amounts extended under this Account to any joint applicant.
IN NEW JERSEY: Certain provisions of this Agreement are subject to applicable law. As a
result, they may be void, unenforceable or inapplicable in some jurisdictions. None of these
provisions, however, is void, unenforceable or inapplicable in New Jersey.
IN NEW YORK, RHODE ISLAND & VERMONT: A consumer report may be requested in
connection with this application or any update, renewal or extension of any credit granted
as a result of this application. Upon your request, you will be informed whether a report
was obtained, and if so, the name and address of the consumer report agency. You consent
to our obtaining of such reports by signing or otherwise submitting a credit application.

IN OHIO: The Ohio laws against discrimination require that all creditors make credit
equally available to all creditworthy customers, and that credit reporting agencies maintain
separate credit histories on each individual upon request. The Ohio Civil Rights Commission
administers compliance with this law.
IN WISCONSIN: If you are applying either individually or jointly with someone other than
your spouse, please contact us immediately at: 1-855-412-2787 and provide us with the
name and address of your spouse. We are required by law to inform your spouse that you
have opened an account with us. Also, please note that no provision of a marital property
agreement (including a Statutory Individual Property Agreement pursuant to Sec. 766.587,
Wis. Stat.), unilateral statement classifying income from separate property under Sec.
766.59, or court decree under Sec. 766.70 adversely affects the creditor unless the creditor
is furnished with a copy of the document prior to the credit transaction or has actual
knowledge of its adverse provisions at the time the obligation is incurred.
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing
Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Wells Fargo Bank, N.A.
P.O. Box 522
Des Moines, IA 50306
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are
not required to investigate any potential errors and you may have to pay the amount in
question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter.
We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to
you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that
amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After We Finish Our Investigation, One Of Two Things Will Happen
• If we made a mistake: You will not have to pay the amount in question or any interest
or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount
you owe and the date payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount
you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit
card, and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your Credit Card Account do not
qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact
us in writing at:
Wells Fargo Bank, N.A.
P.O. Box 522
Des Moines, IA 50306
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as delinquent.

Page 4 of 4

6102OA 1690 (0121)

